PUBLIC'S CONCERNS WITH MILLSTONE
 INDEPENDENT CORRECTIVE ACTION\
   VERIFICATION PROGRAM (ICAVP)


    CASE NO. 97-05S   1/13/98
    OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




                     PUBLIC'S CONCERNS WITH MILLSTONE
                      INDEPENDENT CORRECTIVE ACTION\
                        VERIFICATION PROGRAM (ICAVP)

                             CASE NO. 97-05S




Gregory Goneconto, Special Agent         W. J. Stryker, Team Leader



                             Robert A. Watkins
                     Acting Assistant Inspector General
                             for Investigations
                                                          CONTENTS


                                                                                                                                Page


CHRONOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


BASIS AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ISSUE 1:            THE SELECTION AND INDEPENDENCE OF THE
                    ICAVP CONTRACTORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

ISSUE 2:            THE POINT AT WHICH THE NRC AUTHORIZED
                    THE ICAVP CONTRACTOR TO BEGIN ITS
                    REVIEW AND THE NUMBER AND TYPE OF
                    PLANT SYSTEMS TO BE REVIEWED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ISSUE 3:            THE NRC’S ACCEPTANCE CRITERIA
                    FOR PLANT SYSTEMS REVIEWED
                    DURING THE ICAVP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


OIG FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                                   CHRONOLOGY

Date               Event
June 1996          NRC designates Millstone 1, 2, and 3 as Category 3 plants on
                   the NRC's watch list. Plants in this category require
                   Commission authorization to resume operations.
August 6, 1996     NRC Chairman announces NRC's plan to require NNECO to
                   obtain third-party organization to conduct Independent Corrective
                   Action Verification at Millstone 1, 2 and 3.
August 12, 1996    Meeting between NRC and licensee officials to discuss ICAV?.
August 13, 1996    Licensee commits to ICAVP in letter to NRC.
August 14, 1996    NRC issues Confirmatory Order directing licensee to contract
                   with third party to implement ICAVP.
November 3, 1996   NRC creates Special Projects Office (SPO) within NRR to
                   provide specific NRC management focus on future activities at
                   Millstone.
January 3, 1997    SECY 97-003, "Millstone Restart Review Process" issued.
                   Contains the NRC's Restart Assessment Plan for Millstone
                   Unit 3 as well as the NRC's ICAVP Oversight Inspection Plan.
March 11, 1997     NRR Director issues letter clarifying August 14, 1996, Order
                   regarding ICAVP starting point.
March 28, 1997     NRC identifies two systems for ICAVP review at Millstone 3.
April 7, 1997      NRC provides conditional approval for Sargent and Lundy
                   (S&L) as independent third party to conduct ICAVP for
                   Millstone I & 3.
May 28, 1997       NRC provides conditional approval for Parsons Power Group,
                   Inc., as ICAVP contractor for Millstone 2.
July 17, 1997      NRC staff presents ICAVP acceptance criteria during public
                   meeting; final two systems are selected for Millstone 3 ICAV?
                   review.




                                            1
                                      BASIS AND SCOPE

The Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission (NRC),
initiated this Event Inquiry to address concerns from the public related to the Millstone Nuclear
Power Station (Millstone) Independent Corrective Action Verification Program (ICAVP). On
August 14, 1996, the NRC issued a Confirmatory Order (Order) directing Northeast Nuclear
Energy Company (NNECO), the licensee, to immediately establish an ICAVP for Millstone
Units 1, 2, and 3. The purpose of the ICAVP was to confirm that each Millstone unit was
operating in confonnance with its licensing and design bases. The Order required the licensee to
obtain the services of an independent third-party to act as the ICAVP contractor.

Based on concerns raised by the public, OIG addressed the following issues:

!      The selection and independence of the ICAVP contractors.

!      The point at which the NRC authorized the ICAVP contractor to begin its review and the
       number and type of plant systems to be reviewed.

!      The NRC's acceptance criteria for plant systems reviewed during the ICAVP.




                                                2
                                        BACKGROUND

On August 6, 1996, the NRC Chairman held a news conference in New London, Connecticut and
stated, among other things, that NNECO would be required to obtain the services of a third-party
organization to conduct an "Independent Corrective Action Verification" of licensee activities at
Millstone Units 1, 2, and 3. The Chairman said the objective of this effort would be "to provide a
high level of confidence in the process used by the licensee to identify, review, and correct
problems."

During a meeting with NNECO officials on August 12, 1996, NRC staff identified the need for
independent verification of the licensee's programs for identifying and resolving existing
discrepancies between the plant's configuration and its licensing and design bases. In an August
13, 1996, letter to the NRC, the licensee indicated that it planned to voluntarily comply with the
third-party verification effort.

On August 14, 1996, the NRC issued a Confirmatory Order directing NNECO to establish an
ICAVP for Millstone Units 1, 2, and 3 "to confirm that the plant's physical and functional
characteristics are in conformance with its licensing and design bases." The NRC issued this
Order to the licensee after identifying a significant number of design and configuration control
issues at the three Millstone units. The Order stipulated that the ICAVP review would begin after
the licensee had completed the problem identification phase of the Configuration Management
Program (CMP): a licensee effort to ensure that the design of the Millstone units was in
conformance with NRC requirements and was accurately documented.

The Order also required the licensee to obtain the services of an organization, independent of the
licensee and its design contractors, to conduct the multi-disciplinary review of the Millstone
units. The Order added that "the review is to provide independent verification that, for the
systems selected, the licensee's CMP has identified and resolved existing problems, documented
and utilized licensing and design bases, and established programs, processes, and procedures for
effective configuration management in the future." The Order also stated that the selection of the
independent verification contractor had to be approved by the NRC.

On April 7, 1997, the NRC conditionally approved the licensee's selection of Sargent and Lundy,
LLC, (S&L) as the independent third-party to conduct the ICAVP review for Millstone Units 1
and 3. The NRC concluded that S&L had sufficient technical experience and independence to
conduct the ICAVP. On May 28, 1997, the NRC similarly approved the licensee's selection of
Parsons Power Group, Inc. (Parsons) as the ICAVP contractor for Millstone Unit 2.




                                                 3
ISSUE 1:          THE SELECTION AND INDEPENDENCE OF THE ICAVP
                  CONTRACTORS

NRC directs independent review be conducted

The Order issued to NNECO on August 14, 1996, "direct(ed) the Licensee to obtain the services
of an organization, independent of the Licensee and its design contractors, to conduct a multi-
disciplinary review of Millstone Units 1, 2, and 3." Further, "(t)he ICAVP is to be conducted by
an independent verification team whose selection must be approved by the NRC."

During a meeting with the NRC on September 24, 1 996, the licensee indicated that requests for
proposal to conduct the ICAVP review had been issued to three companies: (1) S&L; (2) Bums
and Roe; and (3) Parsons Power Group, Inc. (Parsons).

On December 18, 1996, the licensee requested NRC approval of S&L as the ICAVP contractor
for Millstone Unit 3, and on January 15, 1997, NU requested approval of S&L with respect to
Millstone Unit 1. On February 14, 1997, NU requested NRC approval of Parsons as the ICAVP
contractor for Millstone Unit 2.

In SECY 97-003, dated January 3, 1997, the NRC staff pointed out that it had established checks
and balances in the ICAVP contractor selection process to assist in ensuring independence. For
instance, the NRC stipulated that the ICAVP contractor would have no current involvement with
the Millstone unit being reviewed, limited prior involvement, and no ownership interest in NU.
In addition, the NRC stipulated that individual ICAVP team members would have no prior
involvement in the unit being reviewed and no financial interest in the licensee, such as stocks or
bonds, or participation in the pension plan. The NRC stated that "this approach recognizes the
practical difficulty in identifying a technically competent organization that has no previous
involvement with the licensee."

NRC approves S&L as ICAVP contractor

On April 7, 1997, the NRC issued its conditional approval of S&L for Millstone Units I and 3,
concluding that S&L had sufficient technical experience and independence to conduct the
ICAVP. However, the NRC restricted S&L from performing reviews in two areas because of its
previous efforts related to "seismic qualifications, specifications, standards, and procedures for
Millstone Unit 1, and its involvement in an analytical study regarding interaction between
nonseismic Category 2 systems and seismic Category I safety systems at Millstone Unit 3." The
NRC also identified potential conflicts based on S&L's prior work related to the standardized
fuse control process and life cycle management, but NRC found that this work did not affect
S&L's ability to perform as the ICAVP contractor.

The NRC based its conditional approval on a review which concluded that S&L was sufficiently
financially independent of the licensee to conduct the ICAVP. The NRC determined that S&L
had no current involvement with Units I or 3 when it was proposed as the ICAVP contractor and
that over the past 10 years S&L received approximately $700,000 in revenues from the licensee.



                                                 4
This figure amounted to 0.035 percent of S&L's gross revenues during this 10-year period (based
on annual revenues of more than $200 million).

The NRC concluded that the amount of S&L's financial involvement with the licensee "did not
comprise a sufficient financial interest on which to question the objectivity of the contractor." In
addition, the NRC noted that the licensee had placed a restriction on S&L from seeking or
performing any work at any of the licensee's facilities until one year after the completion of the
ICAVP. The NRC also reviewed S&L's retirement plan and determined that, although it may
have direct or indirect ownership interests in the licensee, its design contractors or nuclear steam
supply system vendors, the investment portions are managed by a firm independent of S&L and
each individual investment option is widely diversified.

In its review of S&L, the NRC also addressed several issues about the selection of S&L that had
been raised at previous public meetings. One of these issues questioned the process whereby the
licensee selected and paid for the ICAVP contractor. The NRC determined that it was appropriate
for the licensee to assume the costs associated with the ICAVP and added that the NRC would
closely oversee interaction between the licensee and S&L. The NRC concluded that these actions
"provide substantial assurance of an independent objective review by the contractor."

The NRC also addressed concerns related to work that S&L was performing for the NRC
pursuant to a two-year contract, valued at $1,845,43 1, beginning on October 1, 1996, to provide
nuclear technical assistance for design inspections. The NRC contract prohibited S&L from
entering into contractual arrangements with any nuclear power plants based on work developed
as a result of this contract. However, the NRC noted that the ICAVP contractor was to be
independent from the licensee, not the NRC.

NRC approved Parsons as Millstone 2 ICAVP contractor

On May 28, 1997, the NRC approved Parsons as the ICAVP contractor for Millstone Unit 2. The
NRC reviewed work that Parsons had performed at Millstone and concluded that "the work
activities were programmatic in nature, and work did not directly change any existing process,
procedure, or design." With respect to the financial independence of Parsons, the NRC found it
had annual revenues of about $1.5 billion over the last five years, while it received about $5
million over the last 10 years based on work performed for the licensee ($460 thousand of this
was nuclear-related work). The NRC noted that the Parsons Employees Stock Ownership Plan
did not invest in outside companies and that Parsons employees did not control investment
decisions in their 4011 program. The NRC also approved the licensee's use of Parsons to perform
seismic reviews for S&L at Millstone Units I and 3.

Former Millstone employee raises concerns about the independence of the ICAVP
contractor

A former Millstone employee referred OIG to the NRC's Order which directed the licensee to
obtain the services of an independent contractor to perform the ICAVP review. According to this




                                                 5
former Millstone employee, the Order stipulated that the contractor have no prior involvement
with the licensee.

The former Millstone employee claimed to OIG that S&L was selected as the ICAVP contractor
for Millstone Units 1 and 3 despite performing more than $1 million in work for the licensee in
the past. The previous work included contracts in the area of configuration management. The
former employee believed that S&L's prior financial involvement with the licensee and the type
of work S&L performed represented a conflict of interest that prevented S&L from conducting a
truly independent review.

The former Millstone employee argued that the NRC had lost the public's confidence; therefore,
the NRC should have taken extra measures to create an ICAVP that, at the very least, had an
appearance of independence. However, this former employee believed the NRC's Special
Projects Office (SPO) which was set up by the NRC, in part, to oversee the ICAVP process had
completely ignored public suggestions about improving the independence of the ICAVP. This
former employee also believed the SPO never intended the ICAVP to be a truly independent
process.

Prior S&L contract with the licensee on life cycle management

OIG reviewed a September 29, 1995, proposal to NNECO in which S&L offered to provide
consulting services related to the licensee's life cycle management program. OIG also reviewed
the contract that the licensee awarded to S&L on October 12, 1995. Pursuant to an OIG request,
the licensee provided documents related to the life cycle management contract with S&L. OIG
found no reference to future work that S&L planned to perform for the licensee in the area of life
cycle management subsequent to the August 1996 announcement of the ICAVP.

In a February 21, 1997, letter to the NRC, NNECO addressed questions that the NRC raised
during a February 5, 1997, meeting regarding the independence of S&L. The licensee responded
to particular concerns from the NRC with respect to S&L's efforts in the area of life cycle
management. The licensee provided the following information:

       On January 23, 1996, Sargent & Lundy issued a report documenting cost saving
       opportunities through Life Cycle Management for the Haddam Neck Plant and Millstone
       Unit Nos. 1, 2, and 3. The emphasis of the study was the identification of opportunities
       that could be quickly implemented and would produce a favorable return on investment
       through direct cost reduction or increased revenue in a short period of time. The study
       also identified several longer term activities that could yield a similar result, but take
       longer to implement and longer to realize the results ...

       In conclusion, the study focused mostly on the overall approach to Life Cycle
       Management. The component-specific recommendations were based on a comparison of
       NU's [Northeast Utilities] practices with industry practices. The effort did not directly
       impact issues related to the completeness or the correctness of the design and licensing
       bases.



                                                    6
In a letter to the licensee dated March 12, 1997, the NRC requested additional information about
why the Millstone licensing and design bases were not impacted by S&L's componentspecific
recommendations. In a March 26, 1997, response to this request, the licensee stated that "The
study did not explore the basis for these practices, such as planned maintenance. It only
highlighted differences for NU to explore. Therefore, we maintain that the recommendations
made as a result of the study did not directly impact issues related to the completeness of the
design and licensing bases."

Former NRR Director surprised with NRC approval of S&L

The former Director of the NRC's Office of Nuclear Reactor Regulation (NRR) who issued the
August 14, 1996, Order, explained to OIG that there was precedent for the NRC to approve
independent third-party organizations to conduct pre-licensing independent design verifications.
However, the former NRR Director was surprised that the NRC had approved S&L as the
ICAVP contractor for Units I and 3 because of a contract that the NRC had recently awarded to
S&L and Stone and Webster to conduct design reviews. He believed that considering this
financial relationship, it did not look good for the NRC to approve S&L as the ICAVP
contractor.

The former Director told OIG he was not concerned that S&L had a small amount of prior
financial involvement with NNECO because individual team members would be prohibited from
reviewing their own work. He added that because of the variance in the design and construction
of the three Millstone units, it may have been difficult for the licensee to find a contractor with
no prior involvement with the licensee yet with sufficient experience to conduct the ICAVP.

The former NRR Director said the Order did not include specific requirements with respect to the
independence of the ICAVP contractor(s) because the NRC's Office of the General Counsel
(OGC) and the Office of Enforcement (OE) did not want the Order to be overly prescriptive.

He stated that even though it may not have been a legal problem, it could create an appearance
issue if S&L had performed some work for the licensee in the past with the expectation that it
would lead to future work after completing the ICAVP contract. However, the former NRR
Director was unfamiliar with any specific projects that S&L performed for the licensee, such as
the life cycle management program.

SPO member agreed with the selection of S&L and Parsons

According to a senior NRC employee assigned to the SPO, the NRC approved the licensee's
selection of S&L and Parsons, despite the existence of limited prior financial involvement with
the licensee, because the NRC was confident in their abilities to conduct thorough and competent
design basis reviews. He explained that there are only a few companies nationwide that have the
requisite nuclear experience and are capable of handling this type of effort. He said suggestions
from the public that an engineering company outside of the nuclear industry should have been
selected were not practical because such a company would not possess enough experience in



                                                 7
dealing with the unique requirements and aspects involved with the design of nuclear power
plants. He explained the NRC had to be confident in the technical abilities and experience of the
companies that would be selected to perform the ICAVP reviews.

The SPO member noted that the fact the licensee was paying S&L and Parsons to perform the
ICAVP reviews was a secondary issue. He added that it was more important for the NRC to
ensure the independence of the ICAVP contractor. To accomplish this, the NRC established a
rigid protocol for communications between the licensee and the ICAVP contractors.

The SPO member said the Order required that there be no current financial involvement between
the licensee and the third-party organization that would be performing the ICAVP review. He
said S&L and Parsons had performed some minimal work for the licensee in the past, but they
were not the architect/engineers for any of the Millstone units. He added that the NRC did
identify a few instances where S&L and Parsons proposed potential ICAVP team members who
had financial conflicts of interest because they owned small amounts of the licensee's stock.
However, he said these individuals ultimately divested themselves of this stock.

The SPO member said the NRC reviewed all prior work by S&L and Parsons at the Millstone
units, and except for some seismic-related work that S&L had performed, no problems or
potential conflicts of interest were identified. As a result, he said the NRC directed that S&L
would not be allowed to review any prior work in this seismic related area and that these reviews
would be transferred to Parsons.

The SPO member told OIG he was not aware of any future work that S&L would be performing
for the licensee in the area of life cycle management. He said the NRC had identified some prior
work by S&L in this area but did not view it as a potential conflict of interest. He explained that
the NRC stipulated that both S&L and Parsons would be prohibited from performing any work
for the licensee until one year after the ICAVP had been completed. He added that S&L had
stated that the ICAVP contract would not affect its independence or cause the company to put its
reputation at risk.

The SPO member said the NRC's contract with S&L to perform design basis reviews at other
nuclear plants was indicative of the NRC's confidence that S&L was technically competent to
perform the ICAVP review. He noted the NRC Order only required the ICAVP contractors to be
independent from the licensee, not the NRC.

SPO Director was confident in independence of the ICAVP contractors

The Director of the NRC's SPO told OIG that he believed that the NRC conducted a thorough
review of S&L and Parsons before they were approved as the ICAVP contractors. He said the
NRC reviewed the amount of prior financial involvement that S&L and Parsons had with the
licensee and concluded that it was limited. He said the NRC also reviewed the independence of
individual ICAVP team members and required them to sign statements that they had no financial
interest or stock ownership in the licensee.




                                                 8
The SPO Director told OIG that the NRC relied on representations and information provided by
the licensee with respect to the extent and nature of prior work performed by S&L and Parsons.
Based on this information the NRC identified a potential conflict due to some prior seismic-
related work that S&L had performed at Millstone. As a result, the NRC prohibited S&L from
reviewing its own work in this area and arranged for Parsons to handle any seismic-related issues
that arose out of the ICAVP. The SPO Director recalled that S&L had performed some prior
work for NU in the area of life cycle management, but he was unaware of any future work that
S&L would be performing for the licensee in this area. However, he said the NRC prohibited
S&L and Parsons from performing any work for the licensee until one year after the ICAVP
review had been completed.

The SPO Director believed that the NRC contract with S&L in the area of design reviews added
credibility to the ICAVP process because this was an indication of the NRC's confidence in S&L
as a technically competent organization. However, he said it did not affect the independence of
S&L because the ICAVP contractors were required to be independent of the licensee, not the
NRC.

Licensee employees discuss possible future work by S&L at Millstone

OIG interviewed three NNECO employees who were involved in the life cycle management
contract with S&L. The licensee manager assigned to oversee this contract told OIG that the
purpose of the life cycle management contract with S&L was to find a way to deal safely and cost
effectively with the degradation of nuclear assets. He said that prior to awarding the contract to
S&L, the licensee considered several other organizations. He added that the licensee stipulated in
the contract that the work was to be considered proprietary and that the contract was to be
completed by December 1995. This licensee manager said he decided to award the life cycle
management contract to S&L because they promised to meet the completion date and to dedicate
senior staff to the project.

This licensee manager told OIG that S&L produced a report that contained approximately 98
action items that the licensee could pursue in the short and long term. He explained that he had
planned to meet with Millstone senior management and present approximately 12 action items
which offered the most immediate and measurable cost reductions. He added that in early 1996,
an S&L representative had offered to meet with senior Millstone management about pursuing
some of these action items; however, the licensee manager declined the offer and told the S&L
representative that he would make the presentation himself.

Additionally, this licensee manager told OIG that the life cycle management project was "pretty
much done" by S&L and that it was the responsibility of the licensee to carry the project forward.
However, he said this project was stalled because of emerging issues such as Millstone design
bases compliance. He added that there were no agreements or discussions with S&L about
pursuing future work based on the results of the life cycle management contract. In addition, he
said that because the project had been stalled, there were no funds available to pursue any of
S&L's life cycle management recommendations.




                                                9
OIG also interviewed an NNECO engineer who was involved in the life cycle management
project. This licensee engineer told OIG that approximately 12 of the most beneficial action
items that could have been implemented quickly and efficiently were gleaned from the S&L
report. He said that one of the life cycle management recommendations made by S&L related to
the licensee's fuse control program. He added that the licensee awarded a separate contract to
S&L in March or April 1996 to follow-up on S&L's fuse control recommendations, but he was
unable to recall when it was completed. However, he believed the cost of this contract was
comparable to the life cycle management contract which, he recalled, was approximately
$110,000. This licensee engineer was unaware of any other follow-up work that S&L performed
as a result of the life cycle management contract.

This licensee engineer recalled that in August or September 1996, the licensee requested that
S&L submit a proposal to perform approximately $1 million in electrical equipment qualification
work pursuant to 10 Code of Federal Regulations (CFR), Part 50.49, but that S&L declined to
submit a bid because it could have affected their ability to compete for the ICAVP contract.

This licensee engineer told OIG that it was reasonable to have expected S&L to play a role in
implementing the action items identified as a result of the life cycle management contract. He
believed that such an effort would have been significant, possibly involving millions of dollars.
He added that after completing the life cycle management contract, an S&L representative
marketed S&L's services for implementing the action items that were identified. He said S&L
would have been the "natural choice" for this work because of their involvement in the initial life
cycle management contract and their involvement with other NRC licensees in this area. He also
indicated that S&L could possibly have qualified as a "sole source" contractor on certain of the
items due to their prior experience on the life cycle management contract. However, he said the
possibility that S&L could be performing future work for the licensee as a result of the life cycle
management contract had been placed on the "back burner" because there was no money or staff
available to implement any of the action items.

OIG also interviewed an NNECO program manager who was involved with the life cycle
management effort. He told OIG that the licensee and S&L determined that although it would
have cost approximately $600,000 to implement the top 12 or 13 action items, they would have
produced financial returns to NNECO of more than $13 million in one year. He said he
incorporated this information in a proposed presentation for senior Millstone management.
However, the presentation never took place. This program manager believed that NNECO had
the ability to implement some of these action items, but NNECO would have considered hiring
an outside organization, such as S&L, to implement those where the licensee lacked the
expertise.

The program manager told OIG he met briefly in March or April 1996 with a senior Millstone
manager on other matters, and he took the time to briefly raise the issue of the life cycle
management presentation. The program manager told OIG that this senior Millstone manager
indicated that the licensee would not be in a position to implement any of the life cycle
management recommendations until after the year 2000. It was noted that this meeting predated
the first mention of the ICAVP by at least four months.



                                                10
OIG interviewed two senior project engineers from S&L who were involved in the life cycle
management contract at Millstone. Both engineers confirmed the facts surrounding the award and
execution of the contract by S&L. The manager responsible for developing S&L's life cycle
management expertise advised OIG that in the past S&L had minor contracts (less than
$100,000) with Commonwealth Edison (COMED) and Baltimore Gas and Electric (BGE) on
aging management issues. The only S&L work at Millstone which resulted from the life cycle
management contract was a small dollar contract involving the licensee's fuse control program.
While the company had initially hoped that the Millstone life cycle management contract would
lead to additional work for S&L at Millstone, the manager termed any future S&L life cycle
management work for Millstone as a "completely dead issue." He stated that there were no
continuing contacts with Millstone on the issues addressed in the life cycle management report.
Additionally, due to internal cost cutting measures, S&L was no longer formally developing its
life cycle management program.

The S&L program manager believed that the previous Millstone life cycle management work had
no relationship to the current ICAVP work. He characterized the life cycle management work as
strategic consulting services that involved essentially business-related decisions while the ICAVP
work was considered a tactical evaluation of a compliance-based program. Another major
difference was the life cycle management contract addressed future cost saving decisions while
the ICAVP was a retrospective look at how the licensee complied with its licensing and design
basis. Both S&L managers confirmed to OIG that once the company was considered a serious
contender for the ICAVP contract, S&L upper management verbally directed that no work be
pursued regarding additional contracts with Millstone. While neither employee could recall the
specific time of this directive, they both believed that it was sometime during the summer of
1996. The S&L project manager who had been assigned Millstone for business development
purposes said that he was reassigned to Maine Yankee in late September/early October 1996.

Member of NEAC believes independence could have been increased

OIG interviewed a member of the Connecticut Nuclear Energy Advisory Council (NEAC) who
has been a member of NEAC since it was formed by the Connecticut state legislature and the
Governor in August 1996. This NEAC member explained to OIG that NEAC was formed
because of problems at the Millstone and Haddam Neck nuclear plants. He stated that state
officials believed that an independent body was -necessary to monitor problems at these plants
and to represent the interests of the citizens of Connecticut.

This NEAC member believed that S&L has been performing competently as the ICAVP
contractor for Millstone Units I and 3, and he had no major question about their independence.
However, he said it was difficult to claim that S&L is totally independent because they are being
paid by the licensee to perform the ICAVP review. He added that he was satisfied with the
actions the NRC has taken to ensure the financial independence of S&L and the individual
ICAVP team members. However, the NEAC member thought the NRC could have done a better
job of creating a barrier between the ICAVP contractor and the licensee.




                                               11
The NEAC member said that at the early stages of the ICAVP review and before the selection of
S&L, NEAC provided suggestions to the NRC that NEAC believed would have increased the
independence of the ICAVP contractors. He said NEAC suggested that the NRC could have
selected the ICAVP contractor and charged the cost back to the licensee. He said NEAC also
suggested that the NRC could have formed an independent board of public, NRC, and NEAC
representatives that would hold money from the licensee in an escrow account and release it to
the contractor as certain ICAVP milestones were satisfactorily met. He stated that the NRC
listened to NEAC but indicated that these suggestions were not practical and that they were going
to proceed in accordance with the Order.

The NEAC member said he had no reason to question the technical competence of S&L. He
added that it would not have been reasonable to select a contractor without any expertise in the
nuclear industry, as some members of the public had suggested, because of the learning curve
required to develop the necessary expertise.




                                                12
ISSUE 2:       THE POINT AT WHICH THE NRC AUTHORIZED THE
               ICAVPCONTRACTOR TO BEGIN ITS REVIEW AND THE NUMBER
               AND TYPE OF PLANT SYSTEMS TO BE REVIEWED

NRC Establishes ICAVP Starting Point

On August 6, 1996, during a visit to Millstone, the NRC Chairman commented to the public that
the ICAVP team "would not go in until the licensee has testified to us that it is at least halfway
through the issues that have to be resolved and then we would go in and verify the resolution of
those issues."

On August 12, 1996, the NRC held a meeting at NRC Headquarters in Rockville, Maryland with
NNECO officials to discuss independent verification actions needed to confirm that the licensee's
programs to detect and correct design control problems were effective. The NRR Director stated
during this meeting that the ICAVP would be comprised of two phases. Phase I of the ICAVP would
focus only on problem identification within systems. The NRR Director advised the licensee that,
"We would like you to focus on the most risk significant systems first. That is, by way of applying
your resources, don't start with the ones that are easiest to accomplish first, but start with the more
risk significant first and work through."
The NRR Director added that Phase 11 would focus on corrective actions for problems that the
licensee identified in Phase I.

With respect to when the ICAVP review would begin, the NRR Director said:

       I don't want to establish a rigid number, but we want to have a sufficient number of
       systems completed [so] there can be a representative sampling out of those systems to
       make judgements on the process, whether that's approximately half of the systems
       completed or it's some number of systems, I don't want to specify a percentage, et cetera,
       because I would like to start the process as early as we can, as soon as there is a
       representative number that you have completed.

The NRR Director added that the ICAVP review would begin when the licensee had completed
the discovery phase for approximately one-half of the systems, some of which would be risk
significant and some would be non-risk significant.

On August 14, 1996, the NRC issued its Order directing the licensee to establish an ICAVP for
Millstone Units 1, 2, and 3 "to confirm that the plant's physical and functional
characteristics are in conformance with its licensing and design bases." The Order stated that the
ICAVP review would "begin after the licensee has completed the problem identification
phase of the CMP." The licensee defined the CMP (Configuration Management Program) as a
document that described all actions the licensee took to ensure that the designs of its
Connecticut nuclear power plants were in conformance with NRC requirements and were accurately
documented. The CMP included all 88 NRC Maintenance Rule, 10 CFR,
Part 50.65 group I and group II systems for Millstone Unit 3.




                                                  13
In a letter from the current Director of NRR to the licensee, dated March 11, 1997, the NRC
explained that the Order was not intended to prevent the ICAVP from beginning until the entire
problem identification phase of the CMP had been completed. The NRC advised the licensee that
it intended for the ICAVP to begin when problem identification had been completed for a sufficient
number of systems to allow the NRC to select an initial representative sample for review by the
ICAVP. According to this letter, the NRC "clarified" the earlier Order so that the ICAVP would
begin after the licensee had completed the problem identification phase of the CMP for one-half of
the total number of risk-significant and safetyrelated systems (group 1), as categorized by a
methodology similar to that used in implementing the NRC Maintenance Rule. The NRC added:

        After NNECO has completed the entire problem identification phase of the CMP, the NRC
        will select an additional system or systems that will be reviewed by the ICAVP. This will
        provide additional assurance that the problem identification phase of the CMP has been done
        with the same rigor and depth for all systems within the scope of the CMP. The review of
        a representative sample of systems by the ICAVP will allow both the licensee and the NRC
        to make judgements on the effectiveness of the licensee's problem identification process.

NRC Identifies Scope of ICAVP

On December 17, 1996, the NRC issued an ICAVP Oversight Plan which contained information on
the scope of the ICAVP and the NRC's methodology for selecting systems. The NRC indicated that
the ICAVP review involved a three-tiered process. In the first tier, four systems would be selected
"to provide a representative sample to test the thoroughness of the licensee's reviews in identifying
potential nonconformances with the design and licensing bases . . . . The ICAVP contractor will
review all design and operational aspects of these systems, including maintenance, surveillance
testing, and training."

The NRC added that the scope of the licensee's review would include a detailed review of
approximately 80 systems that it had characterized as either group I (safety-related and risk-
significant) or group II (safety-significant or risk-significant) in accordance with criteria in the NRC's
Maintenance Rule.

In the second tier, the ICAVP contractor would review those systems that had not been reviewed
during the first-tier review. However, the NRC pointed out that "(t)hese reviews will be more limited
in scope than those performed on the Tier I systems. The objective of these reviews is to identify and
review some critical design characteristics of the systems that are important to ensure that the
licensee's corrective actions have resulted in these systems being capable of performing their
accident mitigation functions . . . "

In the third tier, the ICAVP contractor would, "review some of the various processes used by the
licensee to change or modify the facility as described in the licensing bases. These processes include,
but are not limited to, calculation changes, proposed technical specification changes, modifications,
drawing changes, procedure changes, set point change requests, and replacement item evaluations."




                                                   14
With respect to the methodology for selecting systems for the tier one review, the NRC indicated that
it would select four systems based on risk significance, system characteristics and complexity,
previous opportunities for introducing inappropriate changes to the system or design bases, and
previous problems with that system. The NRC added that it would allow the public to recommend
one or two systems. The NRC explained that "This would address the public concern regarding the
potential for the list of systems being predetermined and available to the licensee before the start of
the ICAVP."




                                                  15
NRC selects systems for tier one review

During an August 6, 1997, Commission Briefing, the NRC indicated that the following four systems
had been selected for the tier one review:

       (1) Service Water System

       (2) Recirculation Spray and Quench Spray (including Refueling Water Storage Tank)

       (3) Auxiliary Building HVAC and Supplemental Leak Collection and Release System

       (4) Emergency Diesel Generator and Support Systems

In making its selection, the NRC grouped more than one system for all except the Service Water
System so that, in actuality, a total of 15 systems were included in the tier one review. For the
purpose of the tier one review, the NRC combined the Recirculation Spray System, the Quench
Spray System and the Refueling Water Storage Tank System into one system; the Auxiliary Building
NVAC System and the Supplemental Leak Collection and Release System into one system; and the
Emergency Diesel Generator System, and the Support Systems (which comprised eight systems) into
the final system.

Member of public concerned with ICAVP starting point and scope

According to a former Millstone employee, during a public meeting on August 6, 1996, the NRC
Chairman stated that the ICAVP review would not begin until the licensee had resolved
approximately 50 percent of all outstanding licensing and design bases issues and had testified as
such to the NRC. However, he said the ICAVP differed significantly from what the NRC Chairman
told the public. He said the August 14, 1996, Order stated that the ICAVP review would "begin after
the licensee has completed the problem identification phase" of the licensee's CMP. He added that
the Order was clarified in March 1997 so that the review would begin when the licensee had
completed problem identification for one-half of the group I systems, or about 18 of the 88 total
systems for Unit 3, and there was no requirement that the licensee correct these problems prior to
initiation of the ICAVP review.

This individual expressed the view to OIG that the entire ICAVP process was being driven by the
Millstone restart schedule and that the change in the starting point was the result of the NRC working
with the licensee. Further, he said the NRC was well aware of the financial consequences if the
licensee failed to meet its planned restart dates for the Millstone units.

The former Millstone employee told OIG that the ICAVP review would involve a complete review
of only five of the 88 systems for Unit 3. He believed that the probability that the results of this
review would represent the status of the other systems was very low because not enough systems
were being reviewed. He was concerned that problems found in these five systems could appear
insignificant but could have drastically greater significance if they also applied to the unreviewed




                                                 16
systems. He added that an NRC employee told the New London Day newspaper that to gain a
probability of about 90 percent the ICAVP would have to include 59 systems in its review.




                                           17
Former NRR Director recalls NRC's intent at the time of the Order

The former NRR Director told OIG that the August 14, 1996, Order he issued was not intended to
be specific with respect to when the ICAVP review would begin. He said it was intended to commit
the licensee to certain actions, such as completing problem identification of plant systems, but not
to impose requirements on the NRC staff. He did not believe that orders should be specific with
respect to outlining NRC staff requirements. He added that the Order allowed the Director of NRR
to revise its requirements based on a showing of good cause by the licensee.

The former Director said he advised the licensee during the August 12, 1996, meeting that the
ICAVP would not begin until the licensee had completed problem identification for approximately
one-half of the Unit 3 systems. He explained that the NRC staff did not want to unnecessarily delay
the restart process by waiting until the licensee had completed problem identification activities for
all systems.

He related that the Service Water System, one of the first systems selected for ICAVP review, is a
high risk system that interfaces with numerous other plant systems. He said licensees have had a
history of failing to maintain their licensing basis for this system, and the NRC requires a high
degree of confidence that this system meets its licensing basis. He said it was reasonable for the NRC
to select this system for review, and he would probably have done the same had he been in a position
to do so. The former NRR Director told OIG that he believed that the Service Water System should
have been selected even though it had recently been reviewed pursuant to Generic Letter 89-13 (GL
89-13). He explained that GL 89-13 required licensees to assure the NRC that the Service Water
System was performing its intended safety functions. GL 89-13 focused on operational aspects of
the Service Water System and did not require licensees to conduct a complete design basis review.

SPO member explains scope and starting point of ICAVP

An SPO member told OIG that according to the NRC Maintenance Rule, 36 of the Millstone Unit
3 systems are classified as group I and 52 are classified as group 11 for a total of 88 systems. He
explained that the NRC selected the Service Water System, and Recirculation Spray and Quench
Spray (including Refueling Water Storage Tank) for S&L to review after the licensee had completed
problem identification for one-half, or 18, of the group I systems. This actually accounted for a total
of four systems from the group of 18 that S&L would review in the first phase of the ICAVP review.
He explained that the classification of 88 group I and II systems for Unit 3 was too narrow for the
purposes of selecting only four individual systems (two by the NRC and two by NEAC) and that the
NRC needed to group some systems together so that the ICAVP review would be sufficiently
comprehensive.

The SPO member said after the licensee had completed problem identification for all 88 group I and
Il systems, the NRC allowed NEAC to randomly choose two more systems from about 11 group I
and II systems that the NRC believed were the most safety significant. According to this SPO
member, NEAC selected the Auxiliary Building IIVAC and Supplemental Leak Collection and
Release System (group II), and the Emergency Diesel Generator and Support Systems (group I). As




                                                  18
a result of the way these systems were grouped by the NRC, these two systems actually accounted
for I I systems that were reviewed by S&L.

The SPO member told OIG that the NRC allowed NEAC to randomly select the two systems in
response to concerns from the public that the NRC could have notified the licensee in advance as
to the systems that were going to be reviewed by S&L. He said the public was concerned that the
licensee would be given the opportunity to focus its efforts on those systems that were going to be
reviewed while paying less attention to identifying problems in other systems.

The SPO member believed that 15 systems receiving a complete review by S&L was a sufficient
number. He said this number would allow the NRC to conclude with a high level of confidence that
as long as S&L did not identify any deficiencies in the systems selected for review, there was a high
probability that the licensee's process for identifying licensing and design deficiencies was
effectively applied to other systems. However, he said if problems were identified by S&L, the scope
of the ICAVP review would be increased and S&L would review additional systems.

According to this SPO member, the NRC testimony during the August 12, 1996, public meeting
indicated that the NRC's intent at the time of the Order was that the ICAVP review would begin
before the licensee had completed its review of all 88 systems but not until a sufficient sample size
of systems existed. He saw no benefit to waiting until the licensee completed problem identification
for all 88 systems before allowing the ICAVP review to begin. He explained that although the NRC
would be selecting its systems from the initial sample size of 18, the licensee would still be required
to complete problem identification for all 88 systems because NEAC would make its selection from
the total set of group I and 11 systems.

The SPO member said the NRC selected the Service Water System for review because it is risk
significant and complex, and the NRC wanted to be confident that it met its licensing basis.

This SPO member added that he drafted the March 11, 1997, letter which "clarified" the Order. He
said his letter was written originally as a "modification" nf the Order, but that the NRC Office of the
General Counsel (OGC) later changed it to a "clarification." He said he relied on OGC's judgement
that this change was appropriate.

The SPO member believed this letter was written as a result of an inconsistency that the SPO
Director had identified in the Order with respect to the starting point of the ICAVP review. He said
the Order did not conform to the intent of what the NRC had communicated to the licensee during
the meeting on August 12, 1996. During this meeting, he said the former NRR Director indicated
that the ICAVP review would begin after the licensee had completed problem identification for
approximately one-half of the Millstone Unit 3 systems. However, the SPO member said the Order
did not accurately reflect how the ICAVP was being implemented because it indicated that the
ICAVP review would begin when the licensee had completed its problem identification efforts. He
added that the March 1997 NRC letter was not initiated as a result of communications with, or
pressure from, the licensee. He stated that the letter was issued entirely by the NRC.

NRC Chairman addresses ICAVP starting point



                                                  19
The NRC Chairman advised OIG that the exact wording of the Order as well as a precise starting
point for the ICAVP review had not been established at the time of her August 6, 1996, press
conference. The purpose of the press conference was to provide a general overview of how the
ICAVP process was envisioned at the time. Details such as the starting point were left to the NRC
staff. The Chairman added that the prevailing view among the NRC staff was that the review should
begin during the problem identification phase of the ICAVP rather than during the corrective action
phase. This preference was due, in part, to NRC concerns over past weaknesses with the licensee's
problem identification. With respect to her comment during the August 6, 1996, press conference,
the Chairman noted that it was her understanding that the ICAVP review would not begin until the
licensee had completed problem identification for approximately one half of the risk significant
systems for Unit 3. She further noted that the second part of her comment in which she mentioned
the NRC's verification of the resolution of issues referred to the later stages of the ICAVP process
and not the starting point. While she acknowledged a slight inconsistency in the Order with respect
to the starting point of the ICAVP, the Chairman felt that it was of minor significance since the NRC
retained the authority to identify additional systems for review at any point during the ICAVP
process.

SPO Director initiated change to the Order

The SPO Director told OIG that when the NRC issued its Order on August 14, 1996, the intent was
that the ICAVP would begin when NU had completed the problem identification phase of the CMP
for approximately one-half of the most safety significant systems (the CMP included all 88 group
I and II systems for Unit 3). He said this intent was conveyed to NU during the August 12, 1996,
meeting. However, the SPO Director recognized that the Order did not accurately reflect the NRC's
intent, and he suggested that it be amended so that it would clearly define NRC expectations as to
when the ICAVP review would begin.

OGC Review of Clarification Letter

A senior OGC attorney advised OIG that he reviewed the "clarification" letter which addressed the
starting point for the ICAVP. The original letter drafted by SPO was submitted as a modification to
the original Order. He noted that an order cannot be modified by a letter: an order can only be
modified through issuance of a modified order. Following consultation with another senior attorney
in OGC, there was consideration given to calling the letter a relaxation of the order. However, the
OGC attorney advised OIG that he ultimately made the decision to call the letter a clarification of
the original Order. Since it was the NRC staff s original intent to commence the ICAVP reviews
prior to completion of problem identification, a clarification of the Order was needed. He recalled
that there was a five to ten minute conversation within OGC over the clarification letter and it was
not deemed to be a significant issue. Additionally, the OGC attorney did not recall any noteworthy
discussion on the starting point for the ICAVP at the time the original Order went out in August
1996.

NRC Procedures for Issuing, Modifying, Relaxing, and Clarifying Orders




                                                 20
OIG interviewed a senior representative from the NRC Office of Enforcement (OE). The
representative advised that the agency guidance on issuing orders is generally contained in Chapter
5 of the NRC Enforcement Manual as well as Section C of the General Statement of Policy and
Procedures for NRC Enforcement Actions. Reference to relaxing or rescinding an order is usually
contained in Section IV of the order. Normally, an order can be relaxed or rescinded in writing by
the authority who issued the original order. As to modifications to an order, the OE representative
advised that an order can only be modified through issuance of a new or modified order; it can not
be modified by letter. The OE member continued that a clarification letter is normally issued when
the recipient of an order requests an explanation of something contained in the original order.
According to this representative, a clarification letter should not be used to alter any of the terms or
conditions in the original order. Altering the terms or conditions of an order requires issuing either
a new or modified order. He was unaware of any written explanation or formal procedure governing
the use of clarifying letters. He relied on the commonly used definition of the word to describe the
purpose of such letter.

NEAC member approved of scope and systems selected for review

The NEAC member interviewed by OIG stated that he was initially surprised when he learned that
only four systems were going to receive a complete review. However, he said the NRC did not
effectively communicate to the public that the boundaries of these four systems would result in
reviews of other interfacing systems, thereby increasing the scope of the ICAVP review. For
instance, he said NEAC selected the diesel generator system which the NRC had grouped with other
interfacing systems so that S&L'.s review actually included nine systems.

This NEAC member told OIG that once he understood that the ICAVP review included more than
just four systems, he was satisfied that the scope was adequate. He added that by reviewing 15 of the
88 total systems for Millstone Unit 3, the NRC could effectively determine if the licensee's program
for identifying design deficiencies was working properly.

The NEAC member believed that there was a healthy interchange between NEAC and the NRC. He
said there was never any feeling that the NRC was attempting to limit the scope of the ICAVP to
assist the licensee. He added that the NRC adopted a suggestion by NEAC to formalize definitions
for deficiency reports resulting from the ICAVP so that they could be grouped according to safety
significance.

He explained that he was chosen by NEAC as a member of the subcommittee that randomly selected
the final two groups of systems for review from a list of eight or ten group I and 11 systems provided
by the NRC. He said he was satisfied with the selection process and the systems that were ultimately
selected by the NRC and NEAC. He said the subcommittee unanimously agreed that the list of
systems provided by the NRC was comprehensive and included systems that NEAC also believed
should be reviewed.

This NEAC member said it was appropriate for the NRC to allow the ICAVP review to begin after
the licensee had completed problem identification for one-half of the group I systems if the review




                                                  21
was to be completed in a timely manner. He added that he was unaware of any concerns within
NEAC regarding the point at which the ICAVP review would begin.




                                            22
ISSUE 3:       THE NRC's ACCEPTANCE CRITERIA                            FOR PLANT SYSTEMS
               REVIEWED DURING THE ICAVP
Background

On January 3, 1997, the NRC issued SECY-97-003 which set forth the NRC staff s processes and
approaches for overseeing the corrective action program at Millstone. Included in the SECY was the
December 1996 ICAVP Oversight Plan which addressed the need to establish acceptance criteria as
well as a process for handling findings from the ICAVP contractor. The Oversight Plan indicated the
following about acceptance criteria:

       Before the start of the ICAVP audit, the staff needs to establish acceptance criteria, and a
       process for handling individual findings from the ICAVP contractor. The staff intends to
       define a "defect" as any condition that results in the plant being outside its current licensing
       bases. For example, this would include a condition that would be considered an unreviewed
       safety condition in accordance with 10 CFR 50.59. It would also include a condition that
       would prevent a structure, system, or component from meeting a regulatory requirement
       applicable to the unit. The significance of any defect identified by either the ICAVP
       contractor or the NRC will be assessed by the SPO staff.

The oversight plan continued by explaining that the identification of any defects could "result in a
decision to suspend the ICAVP, to expand the scope of the ICAVP, or to re-perform the ICAVP
following additional licensee corrective action." The Plan added that all deficiencies that do not meet
the definition of a defect would be reviewed to determine if any programmatic trends were evident.

On March 18, 1997, the NRC held a public meeting and addressed questions regarding acceptance
criteria. The SPO Director explained that the ICAVP process was complex, and it was unrealistic
to expect the NRC to define what actions they would take based on specific findings of the ICAVP.
This Director told the public, "We've actually talked about outcomes, potential outcomes. One of
them is that if we begin to find serious deficiencies against licensing basis issues, we'll stop the
ICAVP potentially ... Another potential is if the deficiencies, for example, are less significant, we
might expand the scope of what we look at to get further confidence that the kinds of findings we
found aren't pervasive, that they really have done a good job."

In a Commission briefing on April 23, 1997, the NRC Chairman asked the SPO Director, "And I'm
saying, so how do you decide an expanding scope or potentially expanding scope?" In response, the
SPO Director made the following comment regarding the "success criteria" for the ICAVP:

       We have established a success criteria and termed it, quote, a "defect" for lack of a better
       word. And fundamentally, it relates to an expectation that the licensee's program will be or
       should be successful in eliminating issues that might be uncovered in our subsequent steps
       that put their unit outside of its licensing basis.

       We intend, if we find items of that sort, to look at the significance of those items. For
       example, we would really not expect, and we might consider it a significant finding if we
       found an issue that raises to the level of an unreviewed safety question,



                                                  23
       So the success criteria that we have in mind in our verification phase is one that hopefully
       documents that their effort has been successful in eliminating areas where their plant is
       outside of its licensing basis.

On July 17, 1997, at a public meeting the NRC presented the following ICAVP acceptance criteria:

Level I -      System does not meet licensing/design bases and cannot perform its intended
               function.

               NRC Action: Would likely result in selection of additional system(s) for ICAVP
                           review.

Level 2 -      Single train of redundant system does not meet licensing/design bases and cannot
               perform its intended function.

               NRC Action: Would likely result in expansion of ICAVP scope to evaluate for
                           similar nonconformance issues in other systems.

Level 3 -      System does not meet licensing/design bases but is able to perform its intended
               function.

               NRC Action: Could result in expansion of ICAVP scope to evaluate for similar
                           nonconformance issues in other systems.

Level 4 -      System meets licensing/design bases but contains minor calculational errors or
               inconsistencies of an editorial nature.

               NRC Action: Multiple examples could result in expansion of ICAVP scope to
                           evaluate for similar errors/inconsistencies in other systems.

SPO member explained development of acceptance criteria

An SPO member told OIG that the ICAVP acceptance criteria was developed shortly before a public
meeting on July 17, 1997. He said it was not modeled after any prior Independent Design
Verification Programs because these programs did not use acceptance criteria. He explained that
from the time of the Order, the public had been advised that none of the three Millstone units would
restart until the NRC determined that they were in compliance with their licensing and design bases.
Nevertheless, he said the public wanted the NRC to publish formal acceptance criteria which would
set forth specific NRC actions based on potential negative findings by the ICAVP contractors. He
stated that establishing this acceptance criteria was an attempt to respond to these concerns from the
public. He said the acceptance criteria could not have been more specific with respect to NRC
actions because it would have been difficult and impractical to anticipate the many possible
situations that could develop from the ICAVP review.




                                                 24
The SPO member told OIG that prior to developing this acceptance citeria, the NRC told the public
on several occasions that any negative findings identified by the ICAVP contractors would cause the
NRC to: (1) terminate the ICAVP review and direct the licensee to rereview the deficient system;
or, (2) expand the scope of the ICAVP review to include additional systems.




                                                25
Former NRR Director comments on acceptance criteria

The former NRR Director told OIG that the concept at the time of the Order was that ICAVP
findings would be reviewed against the terms and conditions of the operating license for the systems
selected for review. He said any findings by the ICAVP contractor not identified by the licensee
which were outside of the licensing basis (i.e., were reportable pursuant to 10 CFR, Part 50.72 or
50.73) would be deemed by the NRC as an unacceptable license review. He believed that the NRC
would then direct the licensee to re-review the deficient system and the ICAVP sample size would
be increased.

In the view of the former NRR Director, the NRC's acceptance criteria contained "waffle words"
which decreased its impact with the public. He noted that although to the public the wording
appeared to provide the NRC with "wiggle-room," he believed this acceptance criteria nevertheless
required the NRC to select additional systems for review if the initial systems were found to have
licensing basis deficiencies. The former NRR Director faulted the acceptance criteria because it did
not adequately define the regulatory standard upon which the licensee's perfon-nance would be
measured by the NRC. He felt that tying the acceptance criteria to a regulatory basis such as 10 CFR
50.72 or 50.73 would have provided a better standard for evaluation.

SPO Director defended acceptance criteria

The SPO Director told OIG that he reviewed and approved the NRC's acceptance criteria that was
published in July 1997. He said the acceptance criteria was developed to help the public understand
what types of actions the NRC could take based on negative findings that arose from the ICAVP
review. Because of the complexity of the ICAVP effort and the number of different deficiencies that
could be identified, the SPO Director believed it would have been impractical to establish certainties
that would force the NRC to take specific actions. However, in an effort to keep the public informed,
he said the NRC has held public meetings every four to six weeks and deficiencies are publicized
as they are identified by the ICAVP contractors.

NEAC member supportive of NRC's acceptance criteria

The NEAC member told OIG that the NRC decided to develop formal acceptance criteria based on
suggestions provided by NEAC. He believed that the acceptance criteria was wellworded and
adequately defined NRC actions that would result from negative findings by the ICAVP contractors.
He noted that the acceptance criteria contained some "wiggle room" for the NRC, but he believed
this was appropriate because there should b'-! some allowance for subjectivity and human judgement.
He said the acceptance criteria effectively provided a framework with which the NRC and the public
will be able to discuss deficiencies and how they will be handled.




                                                 26
                                         OIG FINDINGS

ISSUE 1: THE SELECTION AND INDEPENDENCE OF THE ICAVP CONTRACTORS

OIG found that although S&L had performed work for NNECO, there was insufficient reason to
preclude S&L's selection as the ICAVP contractor. OIG learned that although S&L's earlier life cycle
management contract could have resulted in future work for S&L at Millstone, the contractor ceased
pursuing additional life cycle management work prior to becoming involved in the proposed ICAVP
project. Millstone management indicated that additional work in this area was not anticipated until
after the year 2000.

ISSUE 2: THE POINT AT WHICH THE NRC AUTHORIZED THE ICAVP
         CONTRACTOR TO BEGIN ITS REVIEW AND THE NUMBER AND TYPE OF
         PLANT SYSTEMS TO BE REVIEWED

OIG determined that although statements and documents by NRC regarding the starting point for the
ICAVP review contained apparent inconsistencies, the eventual starting point conformed with the
original expectation of the NRC. However, the inconsistencies led to confusion and some skepticism
on the part of the public regarding the objectivity and thoroughness of the ICAVP process.

OIG also determined that the August 1996 Order directed the ICAVP review to begin upon
completion of the problem identification phase of the CMP. However, at the staff s initiative, the
Director of NRR sent a March 11, 1997, letter to NNECO to "clarify" the Order and allow the
ICAVP review to begin after the licensee had completed problem identification for onehalf of the
36 group I systems being reviewed under the CMP. While termed a "clarification" of the Order, OIG
concluded the March 1997 letter was either a relaxation or modification of the Order because it
changed a condition of the original Order. OIG also found that an NRC order can only be modified
through issuance of a modified order.

ISSUE 3: THE NRC's ACCEPTANCE CRITERIA FOR PLANT SYSTEMS REVIEWED
         DURING THE ICAVP

The December 1996 Oversight Plan which was submitted to the Commission on January 3, 1997,
as part of SECY-97-003, called for the NRC staff to establish acceptance criteria prior to the start
of the ICAVP audit. Additionally, during an April 23, 1997, Commission briefing, the NRC staff
discussed the establishment of criteria. However, OIG found that the criteria was not published until
July 1997 as a result of continued public concern over the need for formal acceptance criteria. OIG
also found that the NRC's acceptance criteria for the ICAVP contained vague and imprecise wording
to describe the range of possible NRC actions to address deficiencies. More importantly, as noted
by the former NRR Director, the acceptance criteria did not adequately define a regulatory standard
upon which the licensee's performance would be measured by the NRC.




                                                 27
